                     UNITED STATES DEPARTMENT OF EDUCATION

                                         OFFICE OF INSPECTOR                     GENE~L




                                                      MAY 30 2003


Robert I-l. Pasternack                                                                                       Control Number
Assistant Secretary                                                                                          EO-OIC!An2-B0023
01liee or Special Ed ucation and Rehabilitative Services
Mary E. Swit7.er Building
:)]0 C Street, S\V, Room 3006
\\lashington, DC 20202


Dear Me Pasternack:

This is the Orticc of Inspector General's Final Audit Report, entitled Revinr (dDala
Reliability It)r Rehahilitative Services Administration Reporting Under !he (Jovernmenl
Ft'rjimnancc and Results Act. The objective of our audit '-vas to determine if the
Rehabilitative Services Administration (RSi\) provided reliable datu in support of its
(lovcrnmcnt Performance and Results Act (GPRA) goals as reported in lhe j 999
PCljormonce Rcporrs and 200/ Plans, dated March 2000, for the State Vocational
Rehabilitation Services Program.


                                                        IlACK(;IWUNU

 rhe Rehabilitation Act of 1973. as ,mlended. <lulhori;:es the allocation of Federal funds
on a formula basi~ for the administration ,md opera1ion ora vocational rehabilitation
(VR) program to assist individuals \vith disabilities in preparing for and engagin~ in
gainful employmenL

In 1993, Congress enacted GPR.A (0 establish a means for strategit: planning and
pcrformant:e measurement for government agent:ies to ensure program eHiciency. In
order to carry out that function, GPRA requires each government agency to submit an
annual performance plan and outcome report based on its strategic plan that monitors and
                                  1
evaluates program perfonnance.

All state agencies pm1it:ipating in the VR program submit outcome results to sho\\:
performance every quarter. The actual outcomes should meet the intended goals outlined

I The 1999 Perj(Jrmance Reports and 2001 Plans, dated March 2000, \vas submitted by

the Department under the requirements of GPRA. It is both a report to Congress and the
Nation and a guide to help the Department continuously improve its performance.


                            ~oo   MARYLAND AVE.. S,W. WASlIINGTON, D.C. 20202·1510

   0,," mission IS to ells"re eq"ai access   [0   eri1mx!",,, (md   10   p.mnole educ(1U""'{11 excrllimwe throughout [he Ii'atioll
 in the U.S. Department of Education (Department) annual plan in order to comply with
GPRA requirements. In March 2000, the Department published its Data Quality
Standards to be used by RSA and state agencies to ensure for quality GPRA data
reporting. These standards were published as an appendix to the Department’s GPRA
report entitled, 1999 Performance Reports and 2001 Plans.2 The Department had six
data quality (DQ) standards in place: (1) Validity—data adequately represent
performance; (2) Accurate Description—definitions and counts are correct; (3) Editing—
data are clean; (4) Calculation—the math is right; (5) Timeliness—data are recent; and
(6) Reporting—full disclosure is made. Five of the six3 standards are applicable to state-
reported data.

The state-reported data is accumulated by RSA Headquarters and compiled into
databases. In response to our request, RSA provided four electronic data files that RSA
used to report on the final GPRA report for the State VR program, which receives over
$2.3 billion in federal funds.


                                    AUDIT RESULTS

RSA provided generally reliable data in support of its GPRA goals as reported in the
1999 Performance Reports and 2001 Plans, dated March 2000. However, internal
controls need to be strengthened regarding the databases utilized for reporting purposes.
Specifically, RSA did not remit its data timely nor did it fully disclose the limitations on
the data used to support its FY 1999 GPRA goals.

Timeliness – RSA did not remit its data timely

GPRA requires that: “(a) No later than March 31, 2000, and no later than March 31 of
each year thereafter, the head of each agency shall prepare and submit to the President
and the Congress, a report on program performance for the previous fiscal year.” 4 If
performance goals for the preceding fiscal year are not met, GPRA prescribes alternative
reporting requirements.

Timeliness, Standard Five of the DQ Standards, is defined as data reported in time to
inform policy action. Timely data enables the Department to assess program results and
fulfill its requirements to Congress to present reliable, valid, and timely annual
performance information.



2
  For the purpose of this audit, we used the March 2000 data quality standards that were
in effect during our audit period.
3
  Standard One-Validity ensures that data adequately represent performance. The
Department is responsible for designing performance indicators and identifying the data
that actually measure the goal or objectives of interest.
4
  31 U.S.C. § 1116. For the purpose of our audit, we used the provisions of GPRA in
effect as of March 2000.


                                              2
RSA did not report FY 1999 information in the 1999 Performance Reports and 2001
Plans.5 In the column for actual performance data, RSA reported “No data available” for
each of its performance indicators for FY 1999 for the State VR Services program. As a
result, no data was provided, to evaluate the effectiveness, quality of implementation, and
program results for FY 1999.

We noted at least 10 other programs reporting “No data available” for each of their
performance indicators for FY 1999. The reporting of “No data available” continued in
the FY 2000 report for these same programs in addition to RSA. We issued an Alert
Memorandum, dated March 18, 2003, suggesting that the Deputy Secretary require
stricter deadlines for all programs to collect and submit performance data for subsequent
reports, and limit the use of “no data available” to exceptional circumstances.

We also noted that RSA missed the GPRA reporting requirements for FY 1999, due to a
lack of cut off procedures necessary to finalize its database. Nine performance indicators
are reported by RSA in the GPRA report for the State VR Services program. Of the nine
performance indicators used as performance measurements, six are based on data
accumulated from electronic source information.

RSA officials stated that internalization of the data collection, edit, and reporting process,
before they were prepared to do so, contributed to the late submission of the required
information. For 12 years prior to internalization, an outside contractor handled the
correction process and corrected the data. Due to the death of a key employee of the
outside contractor, RSA internalized the correction process. RSA then assumed
responsibility for editing all the source information. RSA had to train its personnel to
review and edit the information received from the State agencies. Additionally, it had to
set up computer programs to analyze the information to be incorporated in the GPRA
report. These activities were not completed before RSA assumed responsibility for the
edit process. Although the source data was available to RSA, cut-off procedures were not
implemented which would enable RSA to finalize its database, and report on program
performance. RSA therefore, reported “No data available” for its FY 1999 indicators in
the 1999 Performance Reports and 2001 Plans.




5
 The FY 1999 data was finalized and reported in the 2000 Performance Report and 2002
Plans. Although the deadline for the draft report was extended by one month, no data
was reported for FY 2000 in that report.


                                              3
Reporting – RSA did not make full disclosure of the limitations of the data

While RSA ultimately provided generally reliable data in support of its FY 1999 GPRA
goals within its subsequent FY 2000 GPRA report, we found an inconsistency in
reporting data across the GPRA report for the State VR Services program. Specifically,
for indicators 1.1, 1.2, 1.3, 1.5, and 3.1, RSA provided information for reported case
closures6 for all 81 reporting agencies. In contrast, for GPRA report indicator 1.4,
“Improved Earnings,” RSA only reported case closures for 50 of the 81 reporting
agencies. These 31 excluded agencies included 6 “General/Combined” agencies and all
25 “Blind Agencies” which are reported separately from the “General/Combined”
agencies.7

       1)      Excluded "General/Combined"

            - American Samoa (Agency Code 60)
            - Guam (Agency Code YY)
            - New Jersey (Agency Code 29)
            - Northern Marianas (Agency Code GG)
            - Puerto Rico (Agency Code 38)
            - Virgin Islands (Agency Code 51)

       2)      Excluded "Blind Agencies"

               All 25 agencies with records in the database

Standard Six of the DQ Standards relates to reporting, and states that full disclosure can
be met, in part, by documenting the data collection processes. RSA did not make full
disclosure of the limitations of the data because it did not have written procedures for
developing and updating its data files or data collection processes.

In regard to the limitations of data and planned improvements, in the 1999 Performance
Report and 2001 Annual Plans, RSA stated that “Appropriate crosschecks and edits to
verify and validate the quality of these data are in place but are not well documented.
Written procedures will be developed for the collection, cleaning, and analysis of data.”
We noted that in the 2000 Performance Report and 2002 Annual Plans, RSA again stated
that “Written procedures will be developed for the collection, cleaning, and analysis of
data….Steps will also be taken to improve reasonableness checks of data.”

We were able to identify the FY 1999 data reported for GPRA in the 2000 Performance
Report and 2002 Annual Plans. However, we noted that the policy directives we
6
  Case closures are the measurements used to account for persons achieving employment 

outcomes during a reporting period. 

7
  General/Combined Agencies serve all individuals with disabilities in the state unless a

separate Blind Agency, serving only those individuals who are blind or visually impaired, 

exists for that state. Due to the nature of the populations served, performance levels are 

usually different for both General/Combined and Blind Agencies. 



                                             4
reviewed were not clear regarding data interpretation, and only through the subsequent
contact with RSA statisticians were we able to conclude the general reliability of the data.
During the course of our audit, RSA began to develop written documentation identifying
the specific formulas and procedures used to calculate the GPRA report indicators.

Without comprehensive written procedures, there is little assurance that the data files will
yield reliable data from year to year. As no formal written policies and procedures were
implemented during our audit period, RSA was at risk of continuing to report inconsistent
and unreliable performance data in future years.


Recommendation

We recommend that the Assistant Secretary for Office of Special Education and
Rehabilitative Services (OSERS):

 1.1 	 Establish internal control policies and procedures regarding the databases utilized
       for the GPRA report. These procedures should include analytical review, and
       appropriate computerized editing, such as cut-off procedures of databases, for the
       data submitted by the State VR Services program.

1.2 	 Ensure full reporting of data limitations, by establishing written policies, and 

      procedures, for creating and updating the databases utilized for the GPRA report 

      to support consistency of reported information. 


OSERS’s Response

The report incorporates the comments OSERS provided in response to the draft audit
report as Attachment A. OSERS concurred with the findings, although it stated it had
documentation for data collection, data cleaning, and data analysis. OSERS is reviewing
recommendations from both our report and those of an outside consultant recently hired
by RSA in order to develop a specific and responsive action plan.

OIG’s Reply

We considered OSERS’s response to the Recommendations but did not change our
findings or recommendations because OSERS did not to provide documentary evidence
supporting its contentions. Since OSERS did not provide documentation for data
collection, data cleaning, and data analysis, we cannot determine its validity. Because
OSERS is still developing its corrective plan of action, we cannot determine its
responsiveness to the internal control weaknesses we identified in this report.




                                             5

                  OBJECTIVES, SCOPE, AND METHODOLOGY 


The objective of our audit was to determine if RSA provided reliable data in support of
its GPRA goals as reported in the 1999 Performance Reports and 2001 Plans, dated
March 2000, for the State Vocational Rehabilitation Services Program.

We reviewed GPRA data covering October 1, 1998, through September 30, 1999. We
performed our fieldwork at RSA offices in Washington, DC from August 2001, through
September 2002. We held an exit conference with RSA officials on September 10, 2002.

To achieve the audit objective, we interviewed officials from RSA, reviewed policy
directives and supplemental instructions and obtained the electronic data files used by
RSA to prepare the GPRA report. The electronic data files were translated into Visual
dBase and Microsoft Access database files to assess the reliability of this data. We tested
the accuracy of this data by recalculating the indicators reported. Based on these tests
and assessments we conclude that the data was basically reliable to be used in meeting
the audit’s objectives.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of the review described above.


                  STATEMENT ON MANAGEMENT CONTROLS

As part of our review, we assessed the system of management controls, policies,
procedures, and practices applicable to RSA’s process for collecting performance data for
meeting their GPRA objectives. Our assessment was performed to determine whether the
processes used by RSA provided a reasonable level of assurance that RSA used reliable
data to report the outcomes specified.

For the purpose of this report, we assessed and classified RSA’s significant controls
related to collecting and reporting performance data into the following categories:

          Policy directives for forms RSA-911 and RSA-113
          Implementation of computerized software for evaluation of data

Because of inherent limitations, a study and evaluation made for the limited purpose
described above would not necessarily disclose all material weaknesses in the
management controls. However, our assessment disclosed significant management
control weaknesses, which adversely affected RSA’s ability to report complete and
timely GPRA data to the Department. These weaknesses included non-compliance with
data submission guidance set by GPRA and overall inadequate written policies and
procedures regarding the data utilized for the GPRA report. These weaknesses and their
effects are fully discussed in the AUDIT RESULTS section of this report.




                                             6

                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
Department of Education officials.

Please provide us with your final response to each open recommendation within 60 days
of the date of this report indicating what corrective actions you have taken or plan. and
related milestones.

In accordance with Office of Management and Budget Circular A-50, we will keep this
audit report on the OIG list of unresolved audits until all open issues have been resolved.
Any reports unresolved after 180 days from date of issuance will be shown as overdue in
the OIG's Semiannual Report to Congress.

Please provide the Supervisor, Post Audit Group, Office of the Chief Financial Officer
and the Office of Inspector General, with Quarterly status reports on promised corrective
actions unti l all such acti ons have been completed or continued follow-up is unnecessary.

In accordance with Freedom of Infonnation Act (5 U.S.C. §552), reports issued by the
Office of Inspector General are available, if requested, to members of the press and
general public to the extent information contained therein is not subject to exemptions in
the Act.

We appreciate the cooperation given us in the review. Should you have any questions
concerning thi s report , please call Daniel P. Schultz, Regional Inspector General for
Audit at 212-637-6271.

                                      Sincerely,


                                      E!lt!Lw
                                      Assistant Inspector General for Audit Services




                                             7

                       UNITED STATES DEPARTMENT OF EDUCATION

                      OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES

                                                                                          MAY        6 2003
TO                   Daniel P. Schultz
                     Regional Inspector General for Audit

FROM            ~~obert Pasternack, Ph.Dci0&ttOCL~
                  , /Assistant Secretary
                     Office of Special Education and Rehabilitative Services

SUBJECT:             Response to Draft Audit Report: Review of Data Reliability for
                     Rehabilitation Services Administration Reporting under the Government
                     Performance and Results Act


This document is the Office of Special Education and Rehabilitative Services' (OSERS)
response to the Office of the Inspector General's (OIG) Draft Audit Report entitled
Review of Data Reliability for Rehabilitation Services Administration Reporting under
the Government Performance and Results Act (the Report), dated March 21,2003. The
OIG provided this draft report to OSERS to obtain advance review and comment.

The Report contained three findings and two recommendations. The first finding
identified the Rehabilitation Services Administration (RSA) as a program that had not
been able to report performance requirements. Inasmuch as GPRA requires that data be
reported related to performance during the previous fiscal year by March 31 of the next
fiscal year, the Report is correct in stating that RSA has not been able to provide such
information in a timely manner. Second, the Report found that RSA did not make full
disclosure of the limitations of the data. In particular, the Report specifically mentioned
GPRA report indicator 1.4, "Improved Earnings," and that RSA only reported case
closures for 50 of the 81 reporting agencies. OSERS concurs that the Report correctly
states that indicator 1.4 included fewer agencies than for all other GPRA indicators, and
that RSA did not make full disclosure of the data limitations in this instance. Third, the
Report found that RSA has not documented its procedures and processes for producing
data related to GPRA standards and indicators. OSERS concurs that this finding is
correct in part. RSA has documentation for data collection, data cleaning, and data
analysis. However, the Report is accurate about the lack of documentation for some
processes.

Recommendations stated within the Report included establishing internal control policies
and procedures regarding the databases utilized for the GPRA report, and ensuring full
reporting of data limitations. Related to these recommendations, RSA has recently
contracted with an outside consultant who has already reviewed its data systems and
processes. The consultant's report also made recommendations to address some of the
data issues RSA faces. For example, the consultant's report has renewed debate in RSA
over how to expedite database development and about the need to establish cut-offs and
"finalize, II at least for reporting purposes, a database in a timely fashion. These


                                 400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202
                                                       www.ed.gov
                                                             8

      Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
discussions have only recently begun and are still ongoing. However, di scussion to date
has focused on the establi shment ofa preliminary database from which to meet GPRA
rcporting requirements, and the establishment of the kind of internal cut-off procedures
envisioned by the Report as the basis for development of the preliminary database.
OSERS is therefore reviewing both the recommendations of the contractor and those of
the Report in order to develop a specific and responsive plan of action. OSERS expects
to share tbis plan of action by August 1, 2003 .

OSERS is committed to producing and reporting timely and reliabl e GPRA data for
special education and rehab ilitation programs serving children, youth, and adults with
disab ilities. We appreciate the opportuni ty to review the draft, and look forward to
working with your office to validate and imp lement an effective plan of action.

If YO ll have any questions about this response, pl ease contact Hu gh Berry at
202.205.8 12 1. Thank you for your consideration.




                                              9

REPORT DISTRIBUTION LIST
CONTROL NO. ED-OIG/A02-B0023



Syed Asghar, Special Education and Rehabilitative Services, Audit Liaison Officer
Philip H. Rosenfelt, Office of General Counsel, Elementary, Secondary, Adult,
                       and Vocational Education
Thomas P. Skelly, Director, Budget Service
William D. Hansen, Deputy Secretary
Phil Maestri, Office of the Deputy Secretary
John Danielson, Chief of Staff
Eugene Hickok, Under Secretary
John Gibbons, Director, Communications
Jack Martin, Chief Financial Officer
Clay Boothby, Acting AS, Legislation and Congressional Affairs
Linda Wilson, Legislation and Congressional Affairs
Laurie M. Rich, AS, Intergovernmental and Interagency Affairs
Carolyn Adams, OGC (Correspondence Control)
L’Wanda Rosemond, General Operations Team
Charles Miller, Post Audit Group, OCFO
Headquarters and Regional Audit Managers




                                          10

